Before the Committee on Commerce, Science, and Transportation
Subcommittee on Aviation
U.S. Senate



For Release on Delivery
Expected at
10:00 a.m. EST
                          Perspectives on FAA’s
                          FY 2007 Budget
Tuesday
March 28, 2006
CC-2006-027

                          Request and the
                          Aviation Trust Fund


                          Statement of
                          Todd J. Zinser
                          Acting Inspector General
                          U.S. Department of Transportation
Mr. Chairman and members of the Subcommittee:

We appreciate the opportunity to testify today regarding the Federal Aviation
Administration’s (FAA) fiscal year (FY) 2007 budget and the state of the Aviation
Trust Fund. Financing FAA is one of the most important issues facing the
Department, Congress, and the aviation industry. It is particularly important in
light of the fact that the current FAA authorization—Vision 100—and the current
ticket taxes expire in 2007.

Our office has an extensive body of work regarding cost control and financial
issues within FAA. For example, in 1999 we reported that persistent cost growth
in the Agency’s operating account was “crowding out” critical capital investments
in air traffic modernization and capacity-enhancing projects within the existing
revenue base. This is still a concern today.

First, it is important that we recognize that FAA oversees the safest aviation
system in the world. Prior to December 2005, when a Southwest Airlines aircraft
skidded off the runway at Chicago Midway and struck a car killing a child in the
vehicle, there had not been a large commercial air carrier fatal accident in this
country in 4 years. Notwithstanding that tragic accident, the United States has
maintained a remarkable safety record considering the many changes occurring
within the industry, including financial uncertainty and rebounding air traffic.

In terms of traffic, FAA estimates that between FY 2004 and FY 2005 domestic
passenger enplanements have risen about 7 percent (from 628 million in 2004 to
670 million in 2005).        FAA also estimates that international passenger
enplanements have risen about 12 percent over this same time frame (from
61 million in 2004 to 69 million in 2005). By 2015, FAA estimates that 1 billion
passengers will board planes (both domestically and internationally) each year.

Although traffic is up, network air carriers continue to suffer huge losses as a
result of soaring fuel costs and their high cost structures. Last year, eight air
carriers were in bankruptcy, which represented about 35 percent of available
capacity. Today, four remain under bankruptcy protection, representing about
17 percent of available capacity. But all the network carriers continue to work
aggressively to move away from high cost structures by reducing in-house staff,
renegotiating labor agreements, and increasing the use of outside repair stations.

It is against this backdrop that we would like to discuss FAA’s FY 2007 budget
request. An important message of our testimony this morning, Mr. Chairman, is
that FAA’s FY 2007 budget primarily focuses on short-term requirements, such as
sustaining existing systems and equipment.



                                        1
The long-term initiatives to address future capacity and the funding mechanisms
necessary to implement them have not yet been defined. That is a critical issue for
this Subcommittee and FAA as deliberations begin concerning FAA’s next
reauthorization and alternative methods for financing FAA.

Today, I would like to focus on two issues:
− Progress and challenges within FAA’s three major accounts—Operations,
   Facilities and Equipment (F&E), and the Airport Improvement Program (AIP),
   and
− Observations on the current funding mechanisms for FAA.

FAA’s FY 2007 Budget Request
Like the air carriers, FAA is in a tough financial environment and, like most
Federal agencies, is facing the realities of an austere budget environment. Over
the past 4 years, FAA’s overall budget has remained relatively flat—between
$13.7 billion and $14.3 billion. For FY 2007, FAA is requesting $13.7 billion,
which is $561 million less than last year’s appropriation. However, there are
significant differences in the distribution of FAA’s FY 2007 budget request among
the Agency’s various accounts. As shown in Table 1, the Operations account
increased a little over 3 percent from last year’s appropriations while the other
3 accounts were reduced. The F&E account is 2 percent less than last year, and
the AIP account is almost 22 percent less than last year. Compared to the
authorized levels in Vision 100, the budget request is $1.48 billion less—primarily
in the AIP and F&E accounts.

     Table 1: Comparison of Recent FAA Enacted Budgets and FY 2007
                    Requested and Authorized Levels
                                   ($ In Millions)
                 FY 2004       FY 2005         FY 2006     FY 2007       FY 2007
                                                           (request)   (authorized)
 Operations      $7,479        $7,707          $8,104      $8,366        $8,064
   F&E           $2,871        $2,525          $2,555      $2,503        $3,110
    AIP          $3,382        $3,497          $3,514      $2,750        $3,700
  RE&D             $119          $130            $137        $130          $356
   Total        $13,851       $13,858         $14,310     $13,749       $15,230

What we observed in 1999 continues to happen today. With FAA’s overall budget
remaining relatively flat, the increasing cost of FAA’s operations continues to
“crowd out” investments in FAA’s capital and airport accounts. For example,
between FY 2004 and FY 2007, FAA’s overall budget decreased by about
$100 million. However, during that period, FAA’s operating costs increased by
$887 million while FAA’s F&E and AIP accounts were reduced by $368 million
and $632 million, respectively.


                                         2
Operations
FAA is requesting $8.4 billion for its FY 2007 operating budget, which is about
$262 million above last year’s enacted amount of $8.1 billion. The Air Traffic
Organization represents $6.7 billion or nearly 80 percent of that request. The
operations account is the largest portion of FAA’s budget, representing nearly
61 percent of the Agency’s FY 2007 request, whereas FAA’s capital and airport
account represent 18 and 20 percent respectively.

Since FY 1996, the first year of personnel reform, FAA’s operating costs have
increased from $4.6 billion to $8.4 billion requested for FY 2007, an increase of
over 80 percent. Controlling operating cost growth remains a significant challenge
for FAA—one that Administrator Blakey and her staff have consistently
demonstrated a clear commitment to addressing.

Progress This Past Year.          We would like to point out two notable
accomplishments FAA made this past year to better manage its operating cost
growth. First, FAA completed the A-76 process for its flight service functions.
On October 4, 2005, employees of 58 flight service stations transitioned from
Government service to the contractor—Lockheed Martin. FAA estimates that
outsourcing this function should save the Agency more than $1.7 billion over the
next 10 years. We plan to begin a review of this transition later this year to ensure
that services continue to meet user needs and that the estimated savings are being
realized.

In August 2005, FAA also completed deployment of its labor distribution system,
which is critical for getting a handle on the actual costs and productivity of the Air
Traffic Organization’s employees—FAA’s largest workforce. Labor distribution
is the process of associating labor cost directly with activities and services by
requiring employees to record their time worked on specific activities. The system
is a critical component of FAA’s cost accounting system, which was mandated by
Congress in 1996.

Clearly, those efforts represent progress on the part of FAA toward its goal of
becoming a performance-based and cost-driven organization. However, getting
significant reductions in operating costs is difficult since over 70 percent of FAA’s
operating costs are made up of employee salary and benefits.

Some stakeholders, including FAA’s own Management Advisory Committee,
have advocated taking dramatic steps to reduce the Agency’s costs, such as
consolidating numerous facilities throughout the country and increasing
outsourcing efforts. But those are complicated and difficult undertakings that
require the collaboration of FAA’s many stakeholders and may be the subject of
further discussions during deliberations over the next reauthorization.

                                          3
Challenges This Coming Year. FAA faces several challenges this year that have
implications for the Agency’s ability to live within its proposed FY 2007 operating
budget. Those include completing negotiations for a new contract with
controllers, addressing the expected surge in controller attrition, and maintaining a
sufficient number of safety inspectors. FAA will also need to determine how to
address the 1-percent Government-wide rescission for its FY 2006 appropriations.

• Completing Negotiations Over a New Contract with Controllers. A major
  challenge that FAA is currently facing is completing negotiations over a new
  collective bargaining agreement with the National Air Traffic Controllers
  Association (the union representing FAA’s largest bargaining unit). A primary
  principle for FAA going into the negotiations was that it could not afford a new
  agreement similar to the existing agreement. According to FAA, the existing
  agreement cost the Agency $1.1 billion over the first 3 years of the contract.
  FAA has proposed several significant changes including hiring new controllers
  under a new pay system with pay bands that are less than the current pay
  system for controllers.

   Formal negotiations began in July 2005 and as of March 10, 2006, the parties
   had either agreed to or withdrawn 121 of 152 articles. However, the remaining
   31 unresolved articles are some of the most difficult issues, including pay,
   annual leave, and work rules. FAA and the union recently agreed to mediation
   and extended the latest round of talks. That is an encouraging sign.

   There is a lot at stake. The outcome of the current negotiations has significant
   implications for FAA’s future operating costs. It will also set the stage for
   labor/management relations between the Agency and the union over the next
   several years. Clearly, it is in the best interest of all stakeholders to complete
   the negotiations.

• Addressing the Expected Surge in Controller Attrition. Another challenge
  facing FAA is the hiring and training of nearly 12,500 new controllers through
  FY 2014 as controllers hired after the 1981 strike begin retiring. In December
  2004, FAA issued the first in what will be a series of annual reports outlining
  FAA’s plans for addressing that challenge. In our opinion, the plan is a good
  first step in that it lays out the magnitude of the issue and establishes broad
  measures for meeting the challenge. However, as we reported in May 2005,
  subsequent reports will need further details about the plan in two key areas.

   First, FAA’s initial report did not identify how much the plan will cost to
   implement. The cost of hiring and training 12,500 new controllers will be
   substantial, particularly since it currently takes new controllers 2 to 5 years to


                                         4
   become fully certified. During that time, FAA incurs the cost of the trainee’s
   salary and benefits as well as the cost of the salary and benefits of the certified
   controllers who instruct them one-on-one. The outcome of the negotiations
   with the controllers union will have a significant impact on the costs of the
   plan as well.

   Second, the plan does not address hiring and staffing needs by location.
   Without this information FAA cannot have confidence in the number of
   controllers it needs. That level of detail is critical because there are over
   300 FAA-operated air traffic control facilities—many with significant
   differences in the levels of air traffic they manage and the complexity of
   operations they handle, which are factors used to set controller salaries at
   individual locations.

   We recommended that FAA address these issues in its next report to Congress,
   and establish baseline metrics for numerous productivity gains it plans to
   achieve over the life of the 10-year plan.            FAA agreed with our
   recommendations and expects to issue its next report in April.

   Identifying ways to reduce the costs and time of hiring and training new
   controllers will be an ongoing and critical issue for FAA for years to come.
   FAA will need to consider all opportunities to improve its hiring and training
   process. For example, in December 2005, we reported that FAA could reduce
   the time and costs of training new controllers by making certain educational
   requirements a prerequisite for candidates before they are hired. FAA agreed
   with our recommendation to evaluate this concept and has convened a task
   force to study the feasibility, with an expected completion date of October
   2006.

• Maintaining a Sufficient Number of Safety Inspectors. While replacing
  retiring controllers is a critical issue for FAA, it is also important to maintain a
  safety inspector workforce sufficient to achieve the Agency’s mission of safety
  oversight. In June we reported that while FAA has made progress in moving
  to a more risk-based approach to safety oversight, FAA inspectors could not
  effectively use the systems to monitor the rapidly occurring changes within the
  industry.

   In FY 2007, FAA’s budget calls for an increase of 116 safety inspectors.
   However, it is unlikely that staffing gains over the next few years will be
   enough to offset the number of safety inspectors eligible to retire in coming
   years. For example, this year, 28 percent of the current inspector workforce
   (1,008 of 3,628) will be eligible to retire. By 2010, however, half of the safety
   inspector workforce (1,820 of 3,628) will be eligible to retire. In our opinion,


                                          5
   until its risk-based approach to safety oversight is effectively targeting
   resources to the areas of greatest risk, FAA needs to carefully evaluate its
   inspector staffing levels to sustain sufficient oversight in light of the potential
   attrition within that workforce.

• Addressing the FY 2006 Government-wide Rescission. Another challenge
  facing FAA this year is the 1-percent Government-wide rescission for
  FY 2006. The rescission will require FAA to cut about $82 million from its
  operating account. While the Agency is still determining how to incorporate
  the cut, FAA has included a long list of possible reductions in its FY 2007
  budget request. Those possible reductions include deferring seven new starts
  for contract towers until 2007, reducing training for technical workforces,
  reducing overtime, continuing attrition in non-safety staff positions, and
  reducing expenditures in infrastructure support and maintenance, among many
  others.

   However, FAA is also considering reducing the planned number of controllers
   and safety inspectors it plans to hire in 2006, which could affect safety or
   operational efficiency. For example, in the FY 2006 Conference Report on the
   Department’s appropriations, Congress provided FAA with a $12 million
   increase to fund additional safety inspectors.

   FAA has informed us that instead of increasing inspector staffing by 238 in
   FY 2006, it may only add 87. FAA needs to carefully evaluate this position
   given the changes in the industry and increased inspector workload demands.

   FAA is also considering reducing funding for various airspace redesign
   projects. As we noted in May 2005, airspace redesign efforts are important to
   enhance the flow of air traffic, reduce delays, and get the most benefits from
   new runways. FAA is still considering how it plans to address the cuts, but
   with the fiscal year now half over, decisions need to be made and articulated to
   Congress.


Facilities and Equipment
FAA’s capital account—or the F&E account—is the principal vehicle for
modernizing the National Airspace System. It represents about 18 percent of the
Agency’s FY 2007 budget request. For FY 2007, FAA is requesting $2.5 billion
for the Facilities and Equipment account, which is $50 million less than last year’s
appropriation. This is the fourth consecutive year that funding requests for the
capital account are below authorized levels called for in Vision 100.




                                          6
As illustrated in Figure 1, only about 55 percent of FAA’s FY 2007 request for
F&E (or $1.4 billion) will actually go for acquiring air traffic control systems, the
remainder will be spent on personnel, mission support, and facilities.




As we have noted in the past, the majority of FAA’s capital account now goes for
keeping things running (i.e., sustainment), not new initiatives. A review of the top
10 projects by dollar amount in the FY 2007 request shows that while some
projects will form the platforms for future initiatives, the bulk of funds are
requested for projects that have been delayed for years as well as efforts to
improve or maintain FAA facilities or replace existing radars. Enclosure 1
provides information on the top 10 projects in FAA’s FY 2007 budget request.

Over the last several years, FAA has deferred or cancelled a number of projects as
funding for the capital account has remained essentially flat. This includes efforts
for a new air-to-ground communication system, controller-pilot data link
communications, and a new satellite-based precision landing system. FAA has
also postponed making decisions on projects like the billion dollar Standard
Terminal Automation Replacement System. These are some of the reasons why
there is so much discussion about the next generation air traffic management
system.

Notwithstanding a lack of clarity with respect to the cost and schedule of the next
generation system, FAA is requesting F&E funds for two projects that are
considered “building blocks” for the next generation system. These are not new
programs per se and have been under development or been funded in previous
budgets.

   • Automatic Dependent Surveillance-Broadcast (ADS-B) is a satellite-based
     technology that allows aircraft to broadcast their position to others. In FY


                                         7
          2007, FAA is requesting $80 million for this satellite-based technology. In
          prior budgets, ADS-B was funded under the Safe Flight 21 initiative which
          demonstrated the potential of ADS-B and cockpit displays in Alaska and
          the Ohio River Valley. FAA expects to make a decision about how quickly
          to implement ADS-B and at what cost later this year.

      • System Wide Information Management (SWIM) is a new information
        architecture that will allow all airspace users to securely and seamlessly
        access a wide range of information on the status of the National Airspace
        System and weather conditions. It is analogous to an internet system for all
        airspace users. FAA is requesting $24 million for this program in FY 2007.

Progress and Challenges with Key Air Traffic Control Modernization Projects.
We are not seeing the massive cost growth and schedule delays we have seen with
FAA major acquisitions in the past. This is due to this Administration’s efforts to
take a more incremental approach to major acquisitions and decisions to defer
several complex and challenging efforts. Last year, we reported that 11 of
16 major acquisitions accounted for cost growth of $5.6 billion 1 . Most of this cost
growth occurred before the establishment of the Air Traffic Organization. It was
also a reflection of efforts to re-baseline programs, which identified costs that had
been pent up for years, and not reflected in prior cost estimates.

Many efforts are maturing and completing them within existing cost and schedule
parameters is critical to allow room for future initiatives. Only one initiative, FAA
Telecommunications Infrastructure, has the potential to reduce FAA’s operating
costs which is a top priority within the Agency. There are number of programs
that require attention.

      • En Route Automation Modernization (ERAM) is intended to replace the
        Host computer network—the central nervous system for facilities that
        manage high-altitude traffic. FAA is requesting $375.7 million for ERAM,
        which is this program’s peak single year funding level according to FAA’s
        Capital Investment Plan. With an acquisition cost of $2.1 billion, this
        program continues to be one of the most expensive and complex
        acquisitions in FAA’s modernization portfolio. The monthly burn rate for
        ERAM will increase from $28 million a month in FY 2006 to $31 million
        per month in FY 2007. This year is critical for ERAM because the system
        is scheduled to come out of the lab environment and begin real world
        testing. Cost increases or schedule slips with ERAM will have a cascading

1
    OIG Report Number AV-2005-061, “Report on the Status of FAA’s Major Acquisitions: Cost Growth
    and Schedule Delays Continue to Stall Air Traffic Modernization”, May 26, 2005. OIG reports and
    testimonies can be found on our website: www.oig.dot.gov.


                                                 8
    impact on other capital programs and directly affect the pace of efforts to
    transition to the next generation system.

•   FAA Telecommunications Infrastructure (FTI).             FAA is requesting
    $28 million for its effort to replace its entire telecommunications system for
    air traffic control. In a recently issued draft report to FAA, we concluded
    that FTI is a high-risk program—with a lifecycle cost estimate of
    $2.4 billion ($310 million estimated acquisition costs and $2.1 billion
    estimated operations costs) through 2017—five years longer than originally
    planned. We also concluded that FAA is unlikely to meet its December
    2007 revised completion date. In fact, only months after being re-baselined
    in December 2004, the program began falling behind its site acceptance
    schedule (which is primarily the installation of FTI equipment) and has not
    recovered.

    After site acceptance, three other critical steps are required to transition FTI
    services into the NAS and begin achieving cost savings. FTI is not likely to
    be completed on time because FAA has not developed a detailed, realistic
    master schedule for all critical steps, including identifying when each
    service will be accepted, when services will be cut over to FTI, and when
    existing (legacy) services will be disconnected. Further, until FAA
    develops a realistic master schedule, it will be difficult to obtain a binding
    commitment from the FTI contractor to complete the transition by
    December 2007.

    Because the primary purpose of the FTI program is to lower operating
    costs, which depend on deploying the system on schedule, expected
    benefits from reducing operating costs are eroding. For example, FAA did
    not realize $32.6 million in reduced operating costs in FY 2005 that it
    expected due to the limited progress made in disconnecting legacy circuits.
    Additionally, unless FAA accelerates FTI service cutover and legacy circuit
    disconnect rates substantially (almost 10-fold over FY 2005), the Agency
    will not realize about $102 million in estimated cost savings for FY 2006.

• Advanced Technologies and Oceanic Procedures (ATOP). FAA is
  requesting $31.3 million for ATOP. ATOP is a new automated system for
  managing oceanic air travel. FAA is now using ATOP in New York and
  Oakland full time, and Anchorage began initial operations earlier this
  month. Experience thus far indicates that ATOP can reduce flight times
  and has significant productivity benefits for controllers. We note that
  software development for ATOP has proven far more difficult and time-
  consuming than expected. FAA has increased the value of the fixed-price
  contract several times to keep the effort on schedule and is using more non-


                                       9
       fixed-price elements of the contract, which are at higher rates than what
       was established at contract award. FAA needs to establish metrics for
       ATOP’s productivity enhancements that will help the Agency determine
       how many controllers it needs at facilities that manage oceanic traffic.

   • Terminal Modernization and Aging Displays. The cost to complete
     terminal modernization remains an unknown, long standing issue. FAA is
     now requesting $93.5 million for terminal automation in FY 2007. Facing
     cost growth of over $2 billion for the Standard Terminal Automation
     Replacement System (STARS), FAA changed its approach to terminal
     modernization and created a new effort, called Terminal Automation
     Modernization/Replacement (TAMR). Based on TAMR results, FAA
     decided to upgrade the displays at four sites and replace the entire system at
     five small sites. This leaves over 100 sites that still need modernization.

       Of particular concern is the replacement of aging displays at four large
       terminal sites, such as Chicago and Denver. As we noted in November
       2004, recurrent problems with the aging displays have safety implications.
       FAA decided to award a competitive contract to replace the displays. FAA
       has not yet issued the proposal to replace these displays, but expects to
       complete this effort by 2008 and is exploring ways to expedite the
       deployment.

FAA Must Strengthen Controls Over Support Service Contracts. FAA needs to
strengthen its controls over its support service contracts to eliminate overspending
and ensure that quality services are being procured. In FY 2005, FAA invested
about $750 million in F&E funds for acquiring support services. About
$300 million of these services were obtained under three multiple-award
“umbrella” procurement programs, under which companies are pre-qualified to
perform individual tasks. We reviewed one of these procurement programs and
found that it was not meeting FAA’s needs for rapid acquisitions, quality services,
or fair prices. We found the agreement was not structured to take advantage of
innovative procurement techniques and contained no incentives for suppliers to
save costs.

Contracts awarded under this program were also poorly managed. For example,
87 of the 114 contracts awarded under the agreement were either sole-sourced or
based on one bid. Our review of 10 sample contracts found that if all options were
exercised, FAA would have spent at least $12 million and possibly up to
$22 million more on these contracts alone than if it acquired these same services
through one of FAA’s other contracting vehicles.




                                        10
FAA agreed with our recommendation to terminate the program and is in the
process of implementing corrective actions to strengthen its controls over support
service contracts. The Administrator has issued instructions that FAA take a
fundamental look at its controls to avoid unnecessary payments for these services.
New controls are being added, including amending policies to require competitive
bidding on all support service contracts of $1 million or more and requiring the
Deputy Administrator’s approval before allowing awards with fewer than three
bids.


Clearly, these are steps in the right direction—the key now is follow through.
Moreover, given the current budget environment, we believe that better
management of support service contracts represents an important area for potential
savings.

The Joint Program and Development Office and the Next Generation Air
Traffic Management System. Major questions facing the Congress and the
aviation community focus on how quickly and at what cost FAA can transition to
the next generation air traffic management system to meet the forecasted demand
for air travel. FAA’s Joint Program and Development Office (JPDO) was
mandated by Congress to develop a vision for the next generation air traffic
management system and align the research efforts of several Federal agencies.
FAA is requesting $18 million specifically for the JPDO through the Agency’s
Research, Engineering, and Development account.

The capital requirements and timeframes for implementing the next generation
system remain unknown. Although the JPDO recently provided a progress report
to the Congress, it was silent on complex implementation issues about how much
funding will be needed and when. We understand that FAA plans to convene
workshops with industry to help determine the requirements and cost of the next
generation system. This will be a central issue in the discussion about how best to
finance FAA and the shape, size, and direction of the capital program for the next
decade. Also, to move forward FAA will have to decide what modifications to
existing efforts are needed and which ones need to be accelerated or cancelled.

Airport Improvement Program
After several years of funding increases for AIP, FAA is proposing a reduction in
AIP funding for the second year in a row. FAA’s FY 2007 request of $2.7 billion
is $764 million less than last year’s appropriation and nearly $1 billion less than
called for in Vision 100. FAA’s FY 2007 budget request results in a 23 percent
reduction in airport grants from last year’s appropriation. The bulk of the planned
reductions ($624 million) will occur in “formula” grants as illustrated in Table 2.



                                        11
     Table 2: Reduction in AIP Formula Grants FY 2006 versus FY 2007
                                   ($ in Thousands)

                    FY 2006           FY 2007         $ Reduction     % Reduction
                    Enacted           Estimate
Primary             $887,980          $496,000          $391,980          44.1%
Airports
Cargo Service       $119,851           $92,651          $27,200           22.7%
Airports
Alaska               $21,345           $10,673          $10,672           50.0%
Airports
States (General     $684,863          $489,724          $195,139          28.5%
Aviation)

The significant reduction to those grants occurs because of special provisions of
FAA’s current authorization. Those provisions require that whenever AIP funding
is $3.2 billion or more, as has been the case in recent years, grant funding levels
were calculated based on the individual formula and that amount was then
doubled. However, since this year’s request is less than $3.2 billion, grant funding
levels are calculated based on the formula alone and are not doubled.

With the decrease in available AIP funds, FAA needs to better manage airport
grants. One area we examined was how airports disposed of land acquired for
noise mitigation purposes. Based on a review of 11 airports, we found that FAA
could recover an estimated $242 million for the Trust Fund or for other noise
mitigation projects with improved oversight of noise land and its disposal. Each
of the 11 airports in our review had AIP-funded noise land, ranging from nominal
acreage at several airports to hundreds of acres at others, that either was no longer
required for noise compatibility purposes or did not have a documented need for
airport development. Given the current budget environment, we believe this is
another area for potential savings.

In addition to AIP funds, 326 of the larger U.S. airports collect passenger facility
charges (PFCs) to finance capital projects. FAA estimates that airports will collect
$2.5 billion in PFCs during 2006. Currently, PFCs are capped at $4.50 per
segment of flight (a maximum of $18.00 on a round trip). The current cap on
PFCs is an important matter for this Committee and has significant implications
for major airport’s capital expenditure plans. For example, one major airport—
Chicago O’Hare—based part of its financing plan for expanding the airport on a
PFC increase from the current maximum of $4.50 to $6.00 per segment. How
airport projects are funded and the level of the PFC charge will be important issues
as the Congress decides how to best finance FAA.




                                         12
Observations on FAA’s Current Funding Mechanisms
The Airport and Airway Trust Fund was created in 1970 to provide a dedicated
revenue source for funding aviation programs. Initially envisioned as a means to
fund the infrastructure and modernization needs of the National Airspace System,
the Trust Fund also pays for large portions of FAA’s operating budget and for one
time items such as security funding after the September 11th attacks.
After several years of decline, Trust Fund revenues are increasing and now exceed
pre-September 11th levels. As shown in Figure 2, in FY 2005 the Trust Fund
collected $10.7 billion in revenue, the second consecutive year Trust Fund
revenues have increased. FAA estimates that revenues will increase to
$11.1 billion in FY 2006 and $11.8 billion in FY 2007.

                                Figure 2: Airport and Airway Trust Fund Revenues
                                                                                                       $11,787
                                   $10,544                                         $10,743   $11,089
                                             $10,073   $9,890
                      $12,000                                             $9,651
                                                                 $9,275
                      $10,000
      $ in Millions




                       $8,000
                       $6,000
                       $4,000
                       $2,000
                          $0
                                FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007
                                                                                  est.    est.

There are several reasons for this increase. First, airfares are slowly rising.
According to the Air Transportation Association, the average cost of a ticket for a
1,000-mile flight increased from $108.70 in September 2004 to $117.90 in
September 2005, an increase of over 8 percent. In addition, the number of people
flying has increased substantially over the past year. In its recently released
aviation forecast, FAA estimates that domestic passenger enplanements rose an
estimated 7 percent between FY 2004 and FY 2005, and international passenger
enplanements have risen an estimated 12 percent over this same time frame.

These changes have resulted in more passengers paying higher airfares, increasing
collections of the 7.5 percent ticket tax. FAA estimates that collections of this tax
rose from $4.6 billion in FY 2004 to $5.0 billion in FY 2005. In addition,
increasing domestic and international passenger traffic have resulted in higher
segment and international tax collections. FAA estimates that segment tax
collections rose from $1.7 billion in FY 2004 to $1.9 billion in FY 2005, while
international tax collections rose from an estimated $1.4 billion in FY 2004 to an
estimated $1.8 billion in FY 2005.



                                                            13
Even though Trust Fund revenues are returning to levels seen in FY 2000, they
have not kept pace with FAA’s budget. For FY 2007, FAA’s budget request
exceeds projected Trust Fund revenues by nearly $2 billion. In addition, FAA’s
current 4-year authorization (Vision 100) calls for higher funding levels of
modernization projects than has been enacted in recent years. These authorized
levels are also significantly higher than Trust Fund revenues. As shown in
Figure 3, FAA’s authorized spending level for FY 2007 is more than $3.4 billion
higher than projected Trust Fund revenues.

                           Figue 3: Comparison of FAA Authorized Levels and Budgets and
                                      Airport and Airway Trust Fund Revenues
                 $16,000

                 $15,000

                 $14,000                                                                                $15,230
                                                                             $14,894
 $ in Millions




                             $14,475                $14,581
                 $13,000

                 $12,000                                                                                      $13,749
                                  $13,851                                            $14,310
                 $11,000                                   $13,858

                 $10,000                                                                  $11,089                   $11,787
                                                                $10,743
                  $9,000
                                          $9,651
                  $8,000
                                  FY 2004                  FY 2005              FY 2006 est.                FY 2007 est.

                                       Authorized Levels    FAA Budget      Trust Fund Revenues


General Fund Contribution. Historically, the General Fund has been used to
make-up some of the difference between Trust Fund revenues and FAA’s budget
and many would argue that it is appropriate for the General Fund to play a part in
funding FAA. As shown in Figure 4, FAA estimates that the General Fund will
contribute $2.9 billion towards FAA’s FY 2007 total budget, or about 21 percent
of the request. This amount is similar to what has been contributed in the previous
three FAA budgets.
                           Figure 4: General Fund Contributions Toward FAA's Budget
                                                 ($ in Billions)



                       $3

                       $2        $3.0/22%           $2.8/20%                                    $2.9 /21%
                                                                          $2.6/18%
                       $1

                       $0
                                 FY 2004             FY 2005          FY 2006 est.             FY 2007 est.




                                                                14
However, the Federal Government is operating in a deficit environment and is
seeking ways to reduce discretionary spending. This year’s 1-percent across-the-
board spending reduction is a result of this environment, and FAA may not be able
to rely on the General Fund to subsidize larger parts of its budget not covered by
the Trust Fund.

Uncommitted Balance of the Trust Fund. In the past, differences between FAA’s
budget and the Trust Fund revenues and General Fund contribution have been
made up by drawing down the Trust Fund’s uncommitted balance. But those
actions have depleted that balance. As shown in Figure 5, between the end of
FY 2001 and the end of FY 2006, the uncommitted balance of the Trust Fund has
gone from $7.3 billion to a projected $1.7 billion. Over the next several years,
using the uncommitted balance of the Trust Fund to make up differences between
the Trust Fund revenues and General Fund contributions may no longer be a
viable option as a stop-gap measure. The low uncommitted balance would also
provide no buffer for FAA’s budget should the excise taxes lapse, as was the case
in 1997.
                        Figure 5: Airport and Airway Trust Fund Uncommitted Balance
                                          at the End of the Fiscal Year

                   $10,000
                               $7,344
                    $8,000
                                          $4,787
   S in Millions




                    $6,000                          $3,898
                                                              $2,447
                    $4,000                                               $1,940      $1,722

                    $2,000

                       $0
                             FY 2001    FY 2002    FY 2003   FY 2004   FY 2005    FY 2006 est.


As we face the next reauthorization, it is clear that other options need to be
considered. Both Secretary Mineta and Administrator Blakey have begun
discussions with FAA’s stakeholders about alternative methods for financing
FAA. However, as discussions regarding the next reauthorization begin, a much
better understanding of FAA’s requirements for the next generation air traffic
control system is needed. Although FAA’s JPDO recently provided a progress
report to Congress, it was silent on complex implementation issues and how much
funding will be needed and when. This will be a central issue in discussions about
how best to finance FAA and the shape, size, and direction of FAA’s capital needs
for the next decade.

That concludes my statement. I would be happy to answer any questions that you
or other members of the Committee might have.


                                                     15
                                                                    ENCLOSURE 1
             Fiscal Year 2007 10 Largest F&E Projects

                    FY 07
Project            Request          Comments
                  ($ in Millions)
ERAM                 $375.7         En Route Automation Modernization: Replaces the Host
                                    computer hardware and software, including the Host
                                    back-up system and associated support infrastructure at 20
                                    air route traffic control centers.

Terminal ATC         $124.0         The air traffic control towers (ATCT) and terminal radar
Facilities                          approach control (TRACON) facilities that cannot meet
Replacement                         present day requirements are being identified for
                                    replacement. The proposed list of projects for FY 2007
                                    will be based on FAA’s Facilities Master Plan for
                                    infrastructure replacement and improvement.
WAAS                 $122.4         Wide Area Augmentation System:               Provides the
                                    augmentation needed to make the GPS satellite signal
                                    fully usable for en route, terminal and non-precision
                                    approaches. We note that WAAS will primarily benefit
                                    general aviation users because commercial airliners
                                    already have on-board capabilities similar to WAAS.

ADS-B National        $80.0         Automatic Dependent Surveillance—Broadcast: An air-
Implementation                      to-air/air-to-ground communications, navigation, and
                                    surveillance technology that relies on GPS to broadcast
                                    the positions of properly equipped aircraft and surface
                                    vehicles.

TFM-                  $78.9         The Traffic Flow Management (TFM) system provides
Infrastructure                      direct mission support to FAA by ensuring efficient flow
Modernization                       of air traffic through the National Airspace System.

ASDE-X                $63.6         Airport Surface Detection Equipment-Model X: Provides
                                    surveillance equipment to help prevent runway incursions
                                    at airports.

ARTCC                 $51.0         Part of FAA’s continued efforts to modernize and sustain
Modernization                       the 21 Air Route Traffic Control Centers (ARTCC), and
                                    the San Juan and Guam Combined Center Radar
                                    Approach Control facilities in order to minimize delays or
                                    outages caused by infrastructure failure.




                                           16
                       FY 07
Project              Request      Comments
                    ($ Million)
Terminal               $93.5      Standard Terminal Automation Replacement System
Modernization and                 (STARS):      Replaces controller and maintenance
Aging Displays                    workstations with color displays, processors, and
                                  computer software at terminal air traffic control facilities.
                                  Facing cost growth with STARS, FAA changed its
                                  approach to terminal modernization limiting STARS
                                  deployments to analyze its options beyond the initial
                                  deployment phase for STARS and created a new effort
                                  called Terminal Automation Modernization/Replacement
                                  (TAMR).

Airport Traffic        $44.2      To upgrade and improve aging ATCT/TRACON facilities
Control                           and equipment to provide an acceptable level of service
Tower/TRACON                      and to meet current and future operational requirements.
Facilities-                       This program also improves the capability of facilities to
Improvements                      withstand a seismic event in accordance with FEMA and
                                  DOT directives.

ASR-11,                $44.1      Airport Surveillance Radar-11: Replaces aging analog
ASR-7 & 8                         radar with digital radar at small terminal facilities.
Replacement

   Total             $1,077.4




                                          17
                                                        ENCLOSURE 2
        Related Office of Inspector General Reports
                              1998 – 2005
Operations
  • FAA Has Opportunities To Reduce Academy Training Time and Costs by
     Increasing Educational Requirements for Newly Hired Air Traffic
     Controllers – AV-2006-021, December 7, 2005
  • Audit of the Management of Land Acquired Under Airport Noise
     Compatibility Programs – AV-2005-078, September 30, 2005
  • Chicago’s O’Hare Modernization Program – AV-2005-067, July 21, 2005
  • Report on Controller Staffing : Observations on FAA’s 10-Year Strategy
     for the Air Traffic Controller Workforce – AV-2005-060, May 26, 2005
  • Airspace Redesign Efforts Are Critical To Enhance Capacity but Need
     Major Improvements – AV-2005-059, May 13, 2005
  • FAA Administration and Oversight of Regionally Issued Contracts –
     AV-2004-094, September 28, 2004
  • FAA’s Actions To Address Leave and Overtime Abuse at Five Locations –
     AV-2004-081, September 9, 2004
  • Short- and Long-term Efforts to Mitigate Flight Delays and Congestion –
     CR-2004-066, June 17, 2004
  • Opportunities To Improve FAA’s Process for Placing and Training Air
     Traffic Controllers in Light of Pending Retirements – AV-2004-060, June
     2, 2004
  • Using CRU-X To Capture Official Time Spent on Representational
     Activities – AV-2004-033, February 13, 2004
  • FAA’s Management of Memorandums of Understanding with the National
     Air Traffic Controllers Association – AV-2003-059, September 12, 2003
  • Safety, Cost and Operational Metrics of the Federal Aviation
     Administration’s Visual Flight Rule Towers – AV-2003-057, September 4,
     2003
  • FAA’s Oversight of Workers’ Compensation Claims in Air Traffic Services
     – AV-2003-011, January 17, 2003
  • FAA’s National Airspace System Implementation Support Contract – AV-
     2003-002, November 15, 2002
  • FAA’s Air Traffic Services’ Policy of Granting Time Off Work To Settle
     Grievances – CC-2002-048, December 14, 2001
  • Automated Flight Service Stations: Significant Benefits Could be Realized
     by Consolidating AFSS Sites in Conjunction with Deployment of OASIS –
     AV-2002-064, December 7, 2001

                                     18
   • Compensation Issues Concerning Air Traffic Managers, Supervisors, and
     Specialists – AV-2001-064, June 15, 2001
   • Technical Support Services Contract: Better Management Oversight and
     Sound Business Practices Are Needed – AV-2000-127, September 28, 2000
   • Contract Towers: Observations on FAA’s Study of Expanding the Program
     – AV-2000-079, April 12, 2000
   • Staffing: Supervisory Reductions Will Require Enhancements in FAA’s
     Controller-in-Charge Policy – AV-1999-020, November 16, 1998
   • Personnel Reform: Recent Actions Represent Progress but Further Effort Is
     Needed To Achieve Comprehensive Change – AV-1998-214, September
     30, 1998

Acquisition and Modernization
  • FAA’s En Route Modernization Program Is On Schedule But Steps Can Be
      Taken to Reduce Future Risks – AV-2005-066, June 30, 2005
  • Status of FAA’s Major Acquisitions: Cost Growth and Schedule Delays
      Continue To Stall Air Traffic Modernization – AV-2005-061, May 26,
      2005
  • Report on Terminal Modernization: FAA Needs To Address Its Small,
      Medium, and Large Sites Based on Cost, Time, and Capability – AV-2005-
      016, November 23, 2004
  • Observations on FAA’s Controller-Pilot Data Link Communications
      Program – AV-2004-101, September 30, 2004
  • FAA’s Advanced Technologies and Oceanic Procedures – AV-2004-037,
      March 31, 2004
  • FAA Needs To Reevaluate STARS Costs and Consider Other Alternatives
      – AV-2003-058, September 10, 2003
  • Status of FAA's Major Acquisitions – AV-2003-045, June 27, 2003
  • Integrated Terminal Weather System: Important Decisions Must Be Made
      on the Deployment Strategy – AV-2003-009, December 20, 2002
  • FAA's Progress in Developing and Deploying the Local Area
      Augmentation System – AV-2003-006, December 18, 2002
  • Follow-up Memo to FAA on STARS Acquisition – CC-2002-087, June 3,
      2002
  • Letter Response to Senator Richard Shelby on FAA's Advanced
      Technologies and Oceanic Procedures (ATOP) – CC-2001-210, April 12,
      2002
  • Status Report on the Standard Terminal Automation Replacement System –
      AV-2001-067, July 3, 2001
  • Efforts to Develop and Deploy the Standard Terminal Automation
      Replacement System – AV-2001-048, March 30, 2001



                                     19
Aviation Safety
   • Review of Air Carriers’ Use of Non-Certified Repair Facilities – AV-2006-
      031, December 15, 2005
   • FAA Safety Oversight of an Air Carrier Industry in Transition – AV-2005-
      062, June 3, 2005
   • Report on New Approaches Needed in Managing FAA’s Hazardous
      Materials Program Federal Aviation Administration – SC-2005-015,
      November 19, 2004
   • Report on FAA Controls Over the Reporting of Operational Errors – AV-
      2004-085, September 20, 2004
   • Review of Air Carriers’ Use of Aircraft Repair Stations - AV-2003-047,
      July 8, 2003
   • Operational Errors and Runway Incursions - AV-2003-040, April 3, 2003
   • Air Transportation Oversight System (ATOS) - AV-2002-088. April 8,
      2002
   • Oversight of FAA's Aircraft Maintenance, Continuing Analysis, and
      Surveillance Systems - AV-2002-066, December 12, 2001
   • Further Delays in Implementing Occupational Safety and Health Standards
      for Flight Attendants Are Likely - AV-2001-102, September 26, 2001
   • Despite Significant Management Focus, Further Actions Are Needed To
      Reduce Runway Incursions - AV-2001-066, June 26, 2001

These reports can be reviewed on the OIG website at http://www.oig.dot.gov.




                                      20
